IN COURT OF CRIMINAL APPEAI

IN THE COURT OF CRIMINAL APPEALS OFSTAT£ 0F 0KLAH°MA
THE STATE OF OKLAHOMA
JUN 17 2021

John d. hadden

DAVID LEE JACKSON, JR.,
Appellant,

CLERK
NOT FOR PUBLICATION

v.

Case No. F-2020-326

THE STATE OF OKLAHOMA,
Appellee
SUMMARY OPINION
LUMPKIN, JUDGE:
Appellant, David Lee Jackson, Jr., was tried by jury and
convicted in the District Court of Comanche County, Case No. CF2018-598, of the following: Count 1, Discharging a Firearm into a
Dwelling, in violation of 21 O.S.2011, § 1289.17A, after former
conviction of two or more felonies; Count 2, Assault and Battery with
a Deadly Weapon, in violation of 21 O.S.2011, § 652, after former
conviction of two or more felonies; and Count 3, Possession of a
Firearm, after former conviction of a felony, in violation of 21
O.S.Supp.2014, § 1283(A). The trial court sentenced Appellant in
accordance with the jury’s verdict to 25 years imprisonment and
payment of a $10,000.00 fine on Count 1, life imprisonment and

CfO)

payment of a $10,000.00 fine on Count 2 and 25 years imprisonment
and payment of a $10,000.00 fine on Count 3, with the sentences to
run consecutively to each other. The trial court additionally imposed
indigent defense fee of $1,000.00 on each count, a Victim
Compensation Assessment of $75.00 on each count, a jury fee of
$780.00 and restitution in the amount of $3,873.59.
From this judgment and sentence, Appellant appeals, raising
the following propositions of error:
I.

SECTION 11 OF THE OKLAHOMA CONSTITUTION
PROHIBITS ONE ACTION FROM BEING CHARGED AS
TWO CRIMES. HERE MR. JACKSON DISCHARGED
BULLETS INTO A DWELLING. THIS ACT FUNCTIONED
AS THE BASIS OF BOTH THE CHARGE OF “FIRING
INTO A DWELLING” AND “ASSUALT AND BATTERY”
WITH A DEADLY WEAPON.

II.

THE OKLAHOMA RECOUPMENT STATUTE, 22
O.S.2011, § 1355.14, IS UNCONSTITUTIONAL
BECAUSE IT VIOLATES THE DUE PROCESS CLAUSE
OF THE 14th AMENDMENT.

III.

THE JURY COSTS CHARGED TO MR. JACKSON
EXCEEDED THE STATUTORY MAXIMUM AND
SHOULD BE VACATED.

IV.

IT IS A STATUTORY REQUIREMENT THAT A TRIAL
JUDGE CONSIDER THE SEVERITY OF THE CRIME,
2

THE PRIOR CRIMINAL RECORD, THE EXPENSES OF
THE VICTIM OF THE CRIME, AND THE ABILITY OF
THE DEFENDANT TO PAY, AS WELL AS THE
ECONOMIC IMPACT OF THE VICTIM COMPENSATION
ASSESSMENT ON THE DEPENDENTS OF THE
DEFENDANT
BEFORE
IMPOSING
A
VICTIM
COMPENSATION FEE. BECAUSE THE TRIAL COURT
DID NOT MAKE ANY INQUIRY INTO ANY OF THESE
FACTORS THE FINE IMPOSED IS ILLEGAL AND
SHOULD BE VACATED.
V.

THERE WAS INSUFFICIENT PROOF OF THE
HARDSHIP TO THE DEFENDANT TO SUPPORT THF
RESTITUTION ORDER.

After thorough consideration of these propositions and the

entire

record before us on appeal including the original record, transcripts,
and briefs of the parties , we have determined that under the law and
the evidence, Appellant is not entitled to relief.
I.
In his first proposition, Appellant argues his convictions for
Count 1, Discharging a Firearm into a Dwelling and Count 2

, Assault

and Battery with a Deadly Weap on, violate the prohibition against
multiple punishments for a single act found in 21 O.S.2011, § 11.
Review of this claim is for plain error as Appellant failed to lodge a
Section 11 objection at trial. Tafolla v. State, 2019 OK CR 15, ]f 37
3

446 P.3d 1248, 1261. We utilize the plain error test found in Simpson
v. State, 1994 OK CR 40, ^ 3, 11, 23, 30, 876 P.2d 690, 694-95,
698-701, and determine whether Appellant has shown an actual
error, which is plain or obvious, and which affects his or her
substantial rights. This Court will only correct plain error if the error
seriously affects the fairness, integrity or public reputation of the
judicial proceedings^or otherwise represents a miscarriage of justice;
Id., 1994 OK CR 40, If 30, 876 P.2d at 701.
“The proper analysis of a Section 11 claim focuses on the
relationship between the crimes.” Sanders v. State, 2015 OK CR 11,
If 6, 358 P.3d 280, 283. “[T]he factors to consider in a Section
11 analysis are: 1) the particular facts of each case; 2) whether those
facts set out separate and distinct crimes; and 3) the intent of the
Legislature.” Id., 2015 OK CR 11, f 8, 358 P.3d at 284.
The record reveals no Section 11 violation. The evidence shows
that Appellant fired his AR-15 repeatedly from Side A of the duplex
through the shared wall into Side B of the duplex where the
occupants, Green, Wiskiewicz, Hafen and Lopez, were located in
different rooms. The shots were fired into different areas of Side B,

i.e., front room, kitchen, bathroom and bedroom. Evidence also
showed that Appellant fired from different rooms in Side A and likely-') ^ ^
assumed various positions during the shooting. Miraculously, only
Hafen suffered a gunshot wound to her hand which occurred when
she was in the bathroom. From these facts, it is clear that Appellant’s
single shot to Hafen’s hand formed the basis of the assault and
battery with a deadly weapon charge, His additional shots into other
rooms of Side B formed the basis of the discharging a firearm into a
dwelling charge. The State proved two separate and distinct crimes,
involving separate victims. There was no Section 11 violation.
Proposition I is denied.
II.
In Proposition II, Appellant takes issue with 22 O.S.2011, §
1355.14, which mandates payment of representation costs by
indigent defendants. He argues the statute is unconstitutional,
relying on a Tenth Circuit case.1 This claim is reviewed for plain error
as Appellant failed to object to the imposition of these costs at

1 This Court is not bound by Tenth Circuit precedent. Martinez v. State,
2019 OK CR 7, ^ 4-6, 442 P.3d 154, 155-56 (disagreeing with and
refusing to follow Tenth Circuit precedent).
_____
5

sentencing. Hubbard v. State, 2002 OK CR 8, | 7, 45 P.3d 96, 99. We
utilize the plain error analysis set forth in Proposition I.
The State may seek reimbursement for indigent-defense costs,
so long as the scheme is “carefully designed to ensure that only those
who actually become capable of repaying the state will ever be obliged
to do so.” Fuller v. Oregon, 417 U.S. 40, 53 (1974). Payment for these
fees in Oklahoma is authorized by Section 1355.14. These fees can
only become due in the future, based upon the trial court’s
determination of a defendant’s ability to pay at the time he or she is
released from prison. 22 O.S.Supp.2016, § 983b. Additionally,
defendants can only be sanctioned for failing to pay these fees if the
failure to pay was willful. Rule 8.1, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch. 18, App. (2021). Finally, the trial court
is authorized by Section 1355.14 to waive these fees for “good cause
shown by the indigent person,” a highly discretionary standard which
certainly benefits defendants. Oklahoma’s statutory scheme for
reimbursing indigent defense costs comports with Fuller. Proposition
II is denied.

F

III.
In his third proposition, Appellant complains of the jury costs
assessed against him. Review of this claim is for plain error since
Appellant failed to object to these costs below. Hubbard, 2002 OK CR
8, 1 7, 45 P.3d at 99. We again utilize the plain error analysis set
forth in Proposition I.
The district courts of Oklahoma are authorized to pay various
fees, including juror fees, out of their respective court funds. 28
O.S.Supp.2017, § 86. These fees form part of the penalty of any
offense of which a defendant is convicted. 28 O.S.2011, § 101. The
district courts are charged with collecting the fees contained in Title
28 and elsewhere in the Oklahoma Statutes. 28 O.S.2011, § 151.
Section 86 provides for payment of a $20.00 per day fee to each
juror. The trial court herein stated the jury fee was calculated at 13
(12 jurors plus an alternate) x $20 x 3 days for a total fee of $780.00.
Based upon the foregoing clear calculation which comports with the
statutes, there was no error in the assessment of jury fees.
Proposition III is denied.

T

IV.
In

Proposition

IV,

Appellant

maintains

the

Victim

Compensation Assessment (VCA), was improperly assessed because
the trial court failed to consider statutory factors before imposing the
assessment. Yet again, review of this claim is for plain error as there
was no objection to the VCA below. Hubbard, 2002 OK CR 8, | 7, 45
P.3d at 99. We again utilize the plain error analysis set forth in
Proposition I.
VCA’s are governed by 21 O.S.2011, § 142.18. Trial courts are
to consider factors in imposing a VCA amount “such as the severity
of the crime, the prior criminal record, the expenses of the victim of
the crime, and the ability to pay, as well as the economic impact of
r-

the [VCA] on the dependents of the defendant.” Id.
The record reflects that the trial court considered the facts of
the case and evidence adduced at trial and information contained in
the pre-sentence investigation report (PSI) prior to making its ruling
regarding the VCA. The trial court also had the State’s restitution
request for Hafen’s losses, admitted at sentencing as State’s Exhibit
1) <3nd Appellant s pauper s affidavit (showing he had no dependents),
’8-

which informed its VCA decision. Based upon this record, it is clear
the trial court considered the factors set forth in Section 142.18.
There was no error in the trial court’s imposition of a VCA in the
amount of $75.00 on Count 2. Proposition IV is denied.
V.
In his final proposition, Appellant contends the trial court’s
restitution order is defective because the court failed to consider if
the restitution award would impose a "manifest hardship” on him or
his family and because there was no hearing on the restitution claim
separate from the sentencing hearing. He makes no claim that the
restitution amount is uncertain. Review of this claim is for plain error
as Appellant did not object to the award below. White v. State 2019
OK CR 2, 1 22, 437 P.3d 1061, 1070. We utilize the plain error
analysis set forth in Proposition I.
Oklahoma law provides that victims of criminal acts are entitled
to restitution of their economic losses suffered as a direct result of
the crime. 22 O.S.2011, § 99If. Section 99If sets out certain
procedures District Attorneys must follow when seeking restitution
for victims. These include utilizing an official form to request
9

DECISION
The Judgment and Sentence of the district court is AFFIRMED.
Pursuant to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE is ORDERED
issued upon delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF COMANCHE
COUNTY, THE HONORABLE SCOTT D. MEADERS, DISTRICT
JUDGE
APPEARANCES AT TRIAL

APPEARANCES ON APPEAL

TERESSA WILLIAMS
LARRY CORRALES
1309 W. GORE BLVD
LAWTON, OK 73501
COUNSEL FOR DEFENDANT

DANNY JOSEPH
P.O. BOX 926
NORMAN, OK 73070
COUNSEL FOR APPELLANT

KYLE CABELKA
ASST. DIST ATTORNEY
COMANCHE CO COURTHOUSE
LAWTON, OK 73501
COUNSEL FOR STATE

MIKE HUNTER
ATTORNEY GENERAL
TESSA L HENRY
ASST. ATTORNEY GENERAL
313 NE 21st STREET
OKLAHOMA CITY, OK 73105
COUNSEL FOR APPELLEE

OPINION BY: LUMPKIN, J..:
KUEHN, P. J.: Concur in Results
ROWLAND, V.P.J.: Concur
LEWIS, J.: Concur
HUDSON, J.: Concur
11

